U.S. Department of Labor	               Office of Inspector General
                                        Washington, D.C. 20210




August 29, 2012

James E. Martin
County Manager
County of Cumberland
P.O. Box 1829
Fayetteville, NC 28302

      Recovery Act: Quality Control Review Single Audit of the
      County of Cumberland for the Year Ended June 30, 2011

Dear Mr. Martin:

The purpose of this final report (Report Number 18-12-007-03-390) is to formally advise
you of the results of a Quality Control Review (QCR) the U.S. Department of Labor
(DOL), Office of Inspector General conducted of the following audit performed by
Cherry, Bekaert & Holland, L.L.P. under the Federal Single Audit Act (Act) and Office of
Management and Budget Circular A-133 (A-133):

      Single Audit of the County of Cumberland for the Year Ended
      June 30, 2011

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The major programs included in our review were as follows:

DOL Major Programs Reviewed
                                                           Catalog of
                                                    Federal Domestic           DOL Funds
Major Program                                     Assistance Number             Expended
                                                              17.258
                                                              17.259
Workforce Investment Act (WIA) Cluster                        17.260           $2,885,305
American Recovery and Reinvestment Act
(Recovery Act) – WIA Adult Program                                    17.258       49,202
Total DOL Funds Expended                                                       $2,934,507

                         Working for America’s Workforce

                                          -2­


Based on our review of the audit documentation related to the programs above, we
determined that the audit work performed was acceptable and met the requirements of
the Act and A-133. No follow-up work is required and there are no issues that require
management’s attention.

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.

If you have any questions concerning the results of the QCR, please contact Melvin F.
Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Ms. Michelle Thompson, Partner
    Cherry, Bekaert & Holland, L.L.P.

   Ms. Beth Wood, State Auditor

   State of North Carolina


   Ms. Brinda Ruggles, Audit Liaison
   Employment and Training Administration

   Mr. Stephen Daniels, Director
   Division of Policy, Review and Resolution
   Employment and Training Administration
